/
Supreme Court, U.S.
FILED

MAY 2 1 2021
OFFICE OF THE CLERK

No.

-\205
IN THE

SUPREME COURT OF
THE UNITED STATES

WYLMINA HETTINGA—Petitioner
vs.
UNITED STATES OF AMERICA, et al—
Respondents

On petition for a Writ of Certiorari to
the United States Court of Appeals
for the Ninth Circuit
PETITION FOR WRIT OF CERTIORARI
Wylmina Hettinga
1587 17th Street, Los Osos, CA 93402
(805) 235-1699

i

QUESTIONS PRESENTED

Are the United States District Courts routinely
deciding disputed facts in favor of the defending
state court actor’s motion for summary judgment
under a 42 U.S.C. §1983 complaint in order to de­
ny United States citizens basic due process rights?

Are these summary judgments consistently being
upheld by the Ninth Circuit Court of Appeals?

IX

LIST OF PARTIES
A list of all parties to the proceeding in the court
whose judgment is the subject of this petition is as
follows:
Wylmina Hettinga, Petitioner
United States of America, Respondent
Chicago Title Company, Respondent
Jeanie O’Connor, Respondent
Scott Raley, Respondent
Walter P Hammon, Respondent
Travis I Krepelka, Respondent
Timothy Loumena, Respondent
Pamela Kennedy, Respondent and state
court actor for 42 U.S.C. §1983 claim

RELATED CASE
Wylmina Hettinga vs. Timothy P. Loumena, et al.,
No. 17-6501, U.S. Supreme Court, Petition for
Writ of Certiorari denied January 8, 2018

Ill

TABLE OF CONTENTS
ENTERED OPINONS AND ORDERS

1

JURISDICTION

3

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

4

STATEMENT OF THE CASE

5

ARGUMENT FOR GRANTING THE WRIT 13
CONCLUSION

14

TABLE OF CITED AUTHORITIES

28 U.S.C. §1254

3

42 U.S.C. §1983

2

Morgan v. United States 304 U.S. (1938) 4, 14

1
INDEX TO ENTERED OPINIONS AND ORDERS
—separately bound
APPENDIX A, In the United States Appeals
Court for the Ninth Circuit, No. 19-55672 affirm ing the judgment listed in Appendix C entered
11/03/2020.
APPENDIX B, In the Ninth Circuit Court
denying my request for panel rehearing and peti­
tion for rehearing en banc for the judgment listed
in Appendix C, entered on 02/23/2021.
APPENDIX C, In the District Court for
Central California, No. 2:18-CV-00150-R-AFM as
Docket 56, stating on page 2, ID# 915, lines 7-10,
“Because Hettinga refused to cooperate with the
sale, the Superior Court authorized the court
clerk, Defendant Pamela Kennedy, to execute the
grant deed. In the instant lawsuit, Hettinga
claims this conduct amounted to a violation of her
civil rights.” entered 08/07/2018.

3

PETITON FOR WRIT OF CERTIORARI
I respectfully pray that a writ of certiorari
issue to review the federal Ninth Circuit rulings
upholding two summary judgment orders by the
California federal district courts who had decided
disputed facts in Kennedy’s favor, as the state
court actor, in a 42 U.S.C. §1983 action in order to
dismiss her as a defendant.

JURISDICTION
On 11/03/2020, the federal Ninth Circuit
Court of Appeals affirmed the District Court’s dis­
missal in Appendix C, unpublished, and then de­
nied a petition for rehearing in Appendix B on
02/23/2021 less than 90 days ago. Summary judg­
ment had been entered on 05/30/2019. The juris­
diction of this Court is proper under 28 U.S.C.
§1254(1) and notifications under Rule 29.4 have
been made.

4
CONSTITIONAL AND STATUTORY
PROVISIONS INVOLVED

Morgan v. United States

304 U.S. 1,; 18

(1938) held that “The right to a “fall hear­
ing” embraces not only the right to present
evidence, but also a reasonable opportunity
to know the claims of the opposing party
and to meet them. The right to submit argu­
ment implies that opportunity; otherwise,
the right may be but a barren one. Those
who are brought into contest with the Gov­
ernment in a quasi-judicial proceeding
aimed at the control of their activities are
entitled to be fairly advised of what the Gov­
ernment proposes and to be heard upon its
proposals before it issues its final com­
mand.”

5
STATEMENT OF THE CASE
The basis for federal jurisdiction was in­
voked under 42 U.S.C. §1983 as follows. Kennedy,
a state court actor, deeded my residence to my ex
spouse, defendant Timothy Loumena in violation
of state court orders to sell the property to a third
party who was willing to pay over a million dollars
for it. I first went to local law enforcement for re­
lief but they refused to prosecute Kennedy for the
deed because she was a state court employee
shielded with immunity.
The state court judge then acknowledged,
on record, that Kennedy was not her court clerk,
that Kennedy had violated her orders, and that
Kennedy had not been authorized to sign the deed
in my place, as trustee of my trust, or as the man­
aging member of my company. However, Loumena
had already long sincer recorded the deed as a
part of the official county records.

6
I held the vast majority interest in my resi­
dence. I had purchased it before marriage as my
sole separate property from proceeds of my moth­
er’s death and I had filed a state homestead decla­
ration on it as a single woman. I had a separate
property interest given to me from the California
Sixth District Court of Appeals which has never
been paid out to me. My company purchased the
residence at a non-judicial sale in 2010 after Loumena purposefully had it foreclosed upon. Loumena told my attorney that he wasn’t going to vacate
my residence and that his attorneys would ensure
that I was not going to set foot in my very unique
property ever again or get a dime from it.
Armed with this knowledge, the state court
judge still refused to order the county recorder’s
office to remove Kennedy’s deed from their rec­
ords. Instead the state judge did all that she could

7

to shield Kennedy and the remaining defendants
with her judicial immunity. She first ordered the
recorder’s office to remove a lis pendens filed by
my attorney on the property. She then claimed ju­
risdiction over the state civil suit my attorney had
immediately filed. She subsequently ordered Loumena to sell the property quickly to a third party
and to come back to her court to divide up the pro­
ceeds. However, the residence was now Loumena’s
sole separate property so Loumena ignored her
and took out a mortgage on the property. Eventu­
ally he couldn’t make the payments so he sold the
property to a third party for far less than a million
dollars as his sole separate property and divided
up the proceeds with the remaining defendants
which included Chicago Title Company and its
employee, Jeanie O’Connor as well as Loumena’s
chosen realtor, Scott Raley who had participated
in Kennedy’s fraudulent deed to get paid.

8

I had no choice but to seek relief under 42
U.S.C. §1983 in the federal district court of North­
ern California. I attached the deed Kennedy had
signed to my original federal complaint and in­
cluded it here as well as Appendix E.
The Northern District ignore the deed and
dismissed my complaint deciding this crucial dis­
puted fact was in Kennedy’s favor. The Court
claimed that the deed was false and that Kennedy
had signed as elisor in my place, as trustee of my
trust, and as the managing member of my compa­
ny, in order to deed my residence to a bona fide
third party buyer in exchange for less than a mil­
lion dollars in proceeds all in accordance with a
state court judge’s orders. The Northern District
Court then declared my and my oldest son to be
vexatious litigants in order to deny us any future
ability to obtain relief from that District Court,
without first obtaining approval, see Appendix D.

9
Between that time and now, the United
States of America, as the IRS, audited my tax re­
turns from 2010 through 2013.
I gave the auditor a copy of the deed and
told him I was claiming a theft loss deduction. He
stated that the IRS was relying on the Northern
District Court’s findings that Kennedy had sold
the property to bona fide third party buyers in­
stead of deeding it for free to Loumena. The IRS
refused to audit Loumena for the short term gain
he had made on my residence, acquiring it for $0
and then selling for close to a million dollars in
profit later that same year. The IRS assessed me
income tax which I paid, as required, in order to
file for a refund in the federal District Court for
Central California where I now resided. I included
all of the same defendants and expected that this
time that I would finally be given a fair trial and
be allowed to question Kennedy at that trial.

10
By that time, Loumena had testified under
oath that Chicago Title Company and its employ­
ee, defendant Jeanie O’Connor had instigated all
of Kennedy’s acts of theft. Loumena further testi­
fied that his attorneys had prepared the deed for
Kennedy to sign. Kennedy testified to me outside
of the District Court that she had knowingly and
unlawfully deeded over my million dollar property
to Loumena for $0 but that I had no recourse because she was retired from being a state employee.
I submitted all of this new evidence to the
Central District Court. The Central District
acknowledge that the defendants stories had all
changed. However, it also stated I had to bring my
claims about the fraud committed on the Northern
District to that court and satisfy heightened plead­
ing requirements, see Appendix C, p 4. The Cen­
tral District then decided that it was a fact that I
had “refused to cooperate” with the sale of my

11
residence to Loumena for $0 and thus the state
court judge had authorized Kennedy to deed it to
him instead, See Appendix C, page 2, lines 6-10.
The Central District then dismissed all of the de­
fendants except the IRS and Kennedy, Kennedy
was not originally dismissed because she had
failed to appear after she had been properly sum­
moned and served any and all filed documents.
The Central District determined it was a
fact that Kennedy hadn’t been served. However,
when I submitted evidence she had, the Central
District changed its mind and stated that I had
failed to respond timely. When I submitted evi­
dence that I had responded timely, the Central
District shielded Kennedy and dismissed her as a
defendant anyways. The Ninth Circuit affirmed
the dismissal of Kennedy as well, see Appendix A,
Docket 83-1, page 3. A cursory review of the Cen­
tral District docket will support my timely re­
sponses to the Central District’s untimely orders.

12
The Central District needed to dismiss Ken­
nedy in order to support its position that the IRS
should keep $40,485.60 of my refund request and
also support the Central District’s claim that no
theft loss of my residence had occurred.
In my statement regarding the issues that I
presented to the Ninth Circuit, I clearly indicated
that my affidavits regarding Kennedy’s theft were
true and sufficient enough to have defeated the
Central District’s summary judgement, had the
District Court accept them as true, and Kennedy’s
deed shown in Exhibit E as true.
Instead, the Ninth Circuit agreed with the
Central District’s unilateral findings that the
state court judge had ordered Kennedy to sell my
residence to Loumena for $0. This allowed the
Ninth Circuit to invoke the Rooker-Feldman Doc­
trine and shield Kennedy from questioning by dis­
missing her as a defendant.

13

ARGUMENT FOR GRANTING THE WRIT
The end result is that the United States
District Courts are routinely deciding disputed
facts in favor of the moving party as part of that
defendant’s motion for summary judgment. This
allows the District Courts to shield state court ac­
tors who violate constitutional rights from being
questioned at a trial which in turn is denying
United States citizens basic due process rights to
confront the state court actor who took something
from them in an unconstitutional manner in the
first place.
I am simply one of the few that has the abil­
ity to fight back to try and stop District Courts
from doing so in violation of my constitutional
rights as a United States citizen to be free from
unwarranted governmental interference in what
rightly belongs to me. I am simply asking for a fair
trial and the ability to question Kennedy at it.

14
In Morgan vs. United States, this court
made it clear that a United State’s citizen’s rights
must be protected by the rudimentary require­
ments of fair play. When District Courts are al­
lowed to deny citizen’s fair trials by deciding dis­
puted facts as a part of summary judgment mo­
tions in order to dismiss state actors as defend­
ants; then citizens’ rights to hold onto their prop­
erty become barren. This court, in Morgan, abso­
lutely sought to stop this from happening in state
courts but it has and it continues to be happening.
CONCLUSION
Respectfully, this petition should be granted.
•jr'

Wylmina Hettinga
1587 17th Street
Los Osos, CA 93402
(805) 235-1699

